No.

IN THE
SUPREME COURT OF THE UNITED STATES

Louis John Fontanez

— PETITIONER

(Your Name)
VS.
United States of America —
■ RESPONDENT(S)

PROOF OF SERVICE
Louis Fontanez

, do swear or declare that on this date,
May 24,
, 20_21, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk of the U.S. Supreme Court

Solicitor General of the U.S.
950 Pennsylvania Ave. N.W.

1 First SJ'reet, N.E.

Room 501 A

Washington, D.C. 20530-0001

WMshing.t!on, D.C. 20543

I declare under penalty of perjury that the foregoing is true and correct.
Executed on_/HjJl

1

, 20JLL
(Signature)
-22-

